                                      Closeout for M98110041
0 n e a n u a r y 1998, we were provided with a copy of an electronic mail message NSF9s
Information desk received. In that electronic message, the complainant1alleged that the
subject2had ciaimed credit for her work on the development of a web site3and had removed
the complainant's name from the list of staff. The complainant was concerned about the
removal of her name bdause, without it, she did not have support for her claims of
experience. OIG's initial review of the web site confmed that the complainant's name was
not included in the staff list.

However, in a subsequent visit, OIG found the complainant's name among the staff
accompanied by a profuse acknowledgment of her efforts and the quality of the graphics.
We consider this a satisfactory resolution to this matter, and closed this case.




'M       S        . a former employee of-
M r . m r , project director for the development of the web site.



                                            Page 1 of 1,
